May 1, 2007

JERRY LANE
VICE PRESIDENT, CAPITAL METRO AREA OPERATIONS

SUBJECT: Audit Report – Address Management System Information – Capital Metro
         Area (Report Number DR-AR-07-004)

This report presents the results of our self-initiated audit of Address Management
System (AMS) information in the Capital Metro Area (Project Number 07XG006DR000).
This is one in a series of reports on AMS information. The information in this report will
be included in a nationwide capping report assessing the management of AMS
information. Our objective was to assess the U.S. Postal Service’s management of
delivery AMS quality review results to ensure address information is correct and
complete to effectively process and deliver the mail in the Capital Metro Area.

Postal Service officials in the Capital Metro Area’s Northern Virginia District effectively
managed delivery of AMS quality review results for approximately 1 percent (20 of
2,043 routes) according to Postal Service guidelines. However, opportunities exist for
Capital Metro Area officials to implement best management practices similar to the New
York District’s with regard to address management national street review training. In
addition, opportunities exist for Northern Virginia District officials to follow established
area and district Standard Operating Procedures (SOPs) to improve the quality of AMS
data to process and deliver the mail through review of additional routes. Approximately
30,345 AMS data errors may exist in the Northern Virginia District on the 2,023 routes
for which street reviews were not conducted.

If the Capital Metro Area implemented best management practices similar to the New
York District’s with regard to address management national street review training and
the Northern Virginia District followed established area and district SOPs, they would be
able to reduce errors by 31.84 percent, which would save the Postal Service $455,197
over the next 10 years. We will report $455,197 of funds put to better use in our
Semiannual Report to Congress.

For fiscal years 2005 and 2006, the Capital Metro Area districts improved their Delivery
Point Sequence (DPS) mail volume percentages. According to the Transformation
Plan, Postal Service officials are trying to achieve a goal of 95 percent of letter
mail volume sorted to DPS by 2010. A decrease in AMS data errors will assist
Capital Metro Area officials in achieving the DPS goal and reduce operating
costs.

We recommended the Vice President, Capital Metro Area Operations, implement
an AMS quality review program similar to the New York District’s that includes
providing training in AMS quality street reviews to delivery supervisors or
appropriate designees. We also recommended the Vice President, Capital Metro
Area Operations, direct the Northern Virginia District to follow the established
area and district SOPs which require establishing an annual district schedule of
AMS quality street reviews and directing delivery supervisors or appropriate
designees to review delivery routes annually. In addition, we recommended the
Vice President, Capital Metro Area Operations, direct the Northern Virginia
District AMS office to establish a tracking system for street reviews.

Management agreed in principle with our findings and recommendations and has
initiatives in progress, completed, or planned addressing the issues in this report.
However, management disagreed with the assumption of basing audit errors of
one AMS review year to project the same number for the next 10 years as the
factor in affixing associated savings of $455,197 in funds put to better use.
Management’s comments and our evaluation of these comments are in the
report.

The U.S. Postal Service Office of Inspector General (OIG) considers
recommendations 1, 2, 3, and 4 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written
confirmation when corrective actions are completed. These recommendations
should not be closed in the follow-up tracking system until the OIG provides
written confirmation the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the
audit. If you have any questions or need additional information, please contact
Rita Oliver, Director, Delivery, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments
cc: Patrick R. Donahoe
    Kathleen Ainsworth
    Charles E. Bravo
    Paul J. Fagan
    Steve Dearing
    Joseph Martin
    Michael Furey
    John Budzynski
    Patricia Westerman
    Deborah A. Kendall
Address Management System Information                                                                  DR-AR-07-004
 Capital Metro Area



                                            INTRODUCTION
    Background             Address management has become the foundation for how the
                           Postal Service moves mail. Over the years, the Postal Service
                           has been striving to obtain the highest quality address information
                           possible for internal use and for its customers. In March 1993,
                           the Postal Service implemented Delivery Point Sequence (DPS).1
                           DPS is the process of putting barcode mail into the carrier’s line
                           of travel (LOT) to eliminate manual mail sorting, improve
                           efficiency, and reduce costs.

                           In 1994, the Postal Service established the Address Management
                           System (AMS) to capture, correct, and complete address
                           information to enhance the efficiency of mail processing and
                           delivery through automation. The AMS captures address
                           information in sort programs used to process mail in DPS. A
                           developer creates sort programs as part of the Sort Program
                           System, which is part of the National Directory Support System
                           (NDSS). DPS sort programs are transferred to either a Mail
                           Processing Barcode Sorter or a Delivery Barcode Sorter2 for
                           sorting mail into DPS.

                           Mail that cannot be processed on automated equipment requires
                           manual processing, which is less efficient and more costly to the
                           Postal Service. As illustrated in Table 1, during fiscal year (FY)
                           2005, the Postal Service processed 94 billion pieces of letter
                           mail, of which 72 billion pieces (76.8 percent) were processed on
                           automated equipment and the remaining 22 billion pieces
                           (23.2 percent) manually. During FY 2006, the Postal Service
                           processed 93.3 billion pieces of letter mail; 74.4 billion pieces
                           (79.7 percent) were processed on automated equipment and the
                           remaining 18.9 billion pieces (20.3 percent) manually.

                                         Table 1. Postal Service Letter Mail Processed in Pieces
                                                           FYs 2005 and 2006

                                                                                                          Cased
                              Fiscal    DPS Letters     Cased Letters     Total Letters      DPS          Letter
                              Year       (Pieces)         (Pieces)          (Pieces)      Percentage    Percentage
                             2005      72,270,819,511   21,846,660,416   94,117,479,927      76.8          23.2
                             2006      74,404,492,341   18,929,268,976   93,333,761,317      79.8          20.2
                             Source: Postal Service Web-Enabled Enterprise Information System (WebEIS)




1
  DPS resulted from an agreement in 1992 with the National Association of Letter Carriers to change the automation
environment.
2
  DPS mail is also sorted on Carrier Sequence Barcode Sorters, a type of mail processing equipment used by smaller
Postal Service facilities.


                                                         1
Address Management System Information                                                             DR-AR-07-004
 Capital Metro Area


                           In 2003, the Postal Service outlined a strategy to enhance
                           address quality in its Intelligent Mail Corporate Plan. The
                           strategy includes improving the address database, filing change
                           of address orders, and using Address Change Service. To
                           improve the address database, the Postal Service established a
                           delivery AMS quality review program to evaluate the quality of
                           AMS data and meet the goal of 100 percent accurate AMS data
                           nationwide.

                           As part of the quality review program, the National Customer
                           Support Center (NCSC) teams annually conduct street reviews of
                           40 routes at each Postal Service district nationwide. The NCSC
                           team selects 40 city or rural delivery routes based on Postal
                           Service guidelines. For every route the teams select within a ZIP
                           Code, they also select two alternate routes.3

                           The street reviews:

                           •   Identify all possible delivery addresses included in Address
                               Information System products and the NDSS files.

                           •   Validate the number of possible delivery addresses assigned
                               to each carrier route.

                           •   Validate the correct LOT or delivery sequence for each carrier
                               route.

                           •   Assign ZIP+4® Codes to maximize compatibility with
                               automated equipment.

                           •   Verify the standardization of addresses according to
                               Publication 28, Postal Addressing Standards, dated July
                               2006.

                           •   Review AMS database products to meet the needs and
                               expectations of Postal Service customers.

                           When a district scores below 98 percent on the street review, the
                           NCSC team will review it every 6 months and districts that score
                           from 98 to 100 percent will receive an annual review. Districts
                           scoring 99 percent or higher may receive abbreviated route
                           reviews.

                           In addition to the NCSC street reviews, AMS district officials
3
 The Delivery/AMS Quality Street Review Guidelines, FY 2005 Revision 1, states that NCSC will review 40 routes
annually.


                                                        2
Address Management System Information                                                                     DR-AR-07-004
 Capital Metro Area


                             conduct street reviews of routes to maintain the accuracy of AMS
                             data. Carriers also identify AMS data changes based on their
                             street deliveries. The carriers note address changes in their AMS
                             edit books and submit the information to district AMS officials by
                             either providing a hardcopy for input or using their Electronic Edit
                             Sheet for review and correction in the AMS database.

                             As the Postal Service continues to process mail on automated
                             equipment, the quality of address information takes on new
                             importance. Use of correct and complete address information
                             can reduce costs to the Postal Service.

    Objective,               Our objective was to assess the Postal Service’s management of
    Scope, and               the delivery AMS quality review results to ensure address
    Methodology              information is correct and complete to effectively process and
                             deliver mail in the Capital Metro Area. We obtained data on
                             FYs 2005 and 2006 delivery AMS quality reviews from the NCSC
                             to analyze routes reviewed, AMS data errors identified, and
                             performance scores. We selected the Capital Metro Area’s
                             Northern Virginia District and the New York Metro Area’s New
                             York District to review, based on the NCSC performance scores
                             identified by delivery AMS quality review results.4

                             We obtained and reviewed prior AMS review results for the New
                             York District, which showed street review performance scores
                             consistently above 99 percent. As a best management practice,
                             we evaluated the feasibility and applicability of using the New
                             York District’s AMS data maintenance program in other Postal
                             Service districts. Our review of performance scores showed that
                             the Northern Virginia District’s historical average score was below
                             98 percent. In addition, the district’s FY 2006 score was below
                             98 percent. (See Appendix A.) We evaluated the district’s AMS
                             data maintenance process to determine if they could improve
                             their programs. We also reviewed the district’s FY 2006 DPS
                             information to compare their DPS volumes to the Postal Service
                             goal.5

                             We conducted this audit from October 2006 through May 2007 in
                             accordance with generally accepted government auditing
                             standards and included such tests of internal controls as we

4
  We selected the Northern Virginia District based on its historical average for performance scores and its low score
on the FY 2006 quality review (below 98 percent). We selected the New York District based on its historically high
performance scores and improvements to the AMS process. Our baseline was FY 2005. However, we reviewed
data for districts that passed in FY 2005, but did not in FY 2006. Northern Virginia was the only district that met this
criterion.
5
  We are planning a future review that will incorporate DPS percentages, to identify opportunities to generate
revenue, reduce costs, and improve customer service.


                                                            3
Address Management System Information                                          DR-AR-07-004
 Capital Metro Area


                       considered necessary under the circumstances. We discussed
                       our observations and conclusions with management officials and
                       included their comments where appropriate. We relied on
                       computer processed information obtained from AMS. We did not
                       directly audit the system, but performed a limited data integrity
                       review to support our data reliance.

 Prior Audit           The OIG has issued four reports directly related to our audit
 Coverage              objective. We have included a complete listing of the reports in
                       Appendix E.




                                             4
Address Management System Information                                                                    DR-AR-07-004
 Capital Metro Area


                                              AUDIT RESULTS
    Address                    Postal Service officials in the Capital Metro Area’s Northern
    Management                 Virginia District effectively managed delivery AMS quality review
    System                     results for approximately 1 percent of their routes (20 of 2,043
    Information –              routes). However, opportunities exist for Capital Metro Area
    Capital Metro Area         officials to implement best management practices similar to the
                               New York District with regard to address management national
                               street review training. In addition, opportunities exist for
                               Northern Virginia District officials to follow established area and
                               district Standard Operating Procedures (SOPs) to improve the
                               quality of AMS data to process and deliver the mail through
                               review of additional routes.

                               In FY 2006, the Northern Virginia District had 2,043 total routes,
                               as illustrated in Chart 1.6 The NCSC team reviewed 1 percent
                               (20 of 2,043) of these routes according to Postal Service
                               guidelines. The team identified 301 errors, or approximately 15
                               errors per route. The district did not achieve the 98 percent
                               AMS target goal. (See Appendix A.)7 During this same period,
                               Northern Virginia District AMS officials stated they reviewed
                               another ½ percent (10 of the 2,023) of the routes,8 but the
                               remaining 98.5 percent (2,013 of 2,043) were not reviewed.
                               (See Appendix B.)

                                Chart 1. Number and Percentage of Routes Reviewed in the Northern Virginia
                                                                 District


                                       Routes
                                         Not
                                      Reviewed
                                        2013
                                       98.5%
                                                                                     NCSC
                                                                   District          Team
                                                                   Officials           20
                                                                      10              1%
                                                                     .5%

                               Source: Postal Service NCSC and Capital Metro Area Officials




6
  The district’s routes consist of 1,383 city routes and 660 rural routes.
7
  To compute a district’s AMS performance score, each error found during a route review is subtracted from the total
number of possible deliveries for the district. This adjusted possible delivery figure is then divided by the district’s
total possible deliveries.
8
  Northern Virginia District AMS specialists stated they conducted quality street reviews for 10 routes, which is fewer
than performed in previous years due to vacancies in the AMS office. However, area and district officials could not
provide documentation to validate the review of the 10 routes.


                                                            5
Address Management System Information                                                                  DR-AR-07-004
 Capital Metro Area


                              Based on these FY 2006 NCSC team reviews and the related
                              error rate per route, 30,3459 AMS data errors may exist on the
                              2,023 routes for which street reviews were not conducted.

                              The Capital Metro Area does not provide training in address
                              management national street reviews to delivery supervisors or
                              appropriate designees similar to training provided in the New
                              York District. In addition, the associate supervisor’s training
                              course given to the district delivery supervisors does not include
                              specific information on AMS quality street reviews. The module
                              only provides information on edit book updates and how to enter
                              changes in the automated system for submission to district
                              officials. However, during our audit, Postal Service
                              headquarters officials selected the Northern Virginia District to
                              pilot test implementation of the Address Quality Improvement
                              Team training provided by the NCSC National Street Review
                              Team.10

                              In FY 2006, Capital Metro Area officials implemented a SOP
                              similar to best management practices the New York District
                              uses. The area SOP requires district AMS officials to conduct
                              street and box section reviews according to national guidelines.
                              The area SOP also requires district officials to implement a
                              tracking system to ensure every route and box section has been
                              reviewed at least once a year. Also, in November 2005,
                              Northern Virginia District officials issued an AMS SOP that
                              requires delivery unit officials to conduct a street review on
                              every route at least once each FY. As discussed earlier in our
                              report, the Northern Virginia District did not conduct street
                              reviews for the 2,023 routes in FY 2006. District AMS officials
                              stated they did not review the remaining routes due to limited
                              AMS staff resources. However, they did not use available
                              district resources, such as delivery supervisors or appropriate
                              designees, to conduct additional street reviews for the remaining
                              2,023 routes in the Northern Virginia District.

                              The Postal Service established the AMS to capture, correct, and
                              complete address information to enhance the efficiency of mail
                              processing and delivery through automation. AMS address
                              information is captured in sort programs to process mail in DPS.
                              The Postal Service created DPS to eliminate manual mail

9
  The error rate for the Northern Virginia District is based on the FY 2006 NCSC team review of 20 routes, which
identified 301 errors. Dividing this by the 20 routes equals 15.05 errors per route. We rounded down the error rate to
15 and multiplied by the 2,023 routes not reviewed, which equals 30,345 potential AMS data errors.
10
   The team consisted of two AMS specialists and 18 delivery supervisors and carriers. The team trained 20 district
employees in October 2006 on how to conduct random quality street reviews at level 21 and above post offices. As
of January 2007, the trained employees have conducted 128 street reviews.


                                                          6
Address Management System Information                                                                  DR-AR-07-004
 Capital Metro Area


                              sorting, improve efficiency, and reduce costs.

                              As illustrated in Table 2, for FYs 2005 and 2006, the Capital
                              Metro Area districts improved their DPS mail volume
                              percentages. According to the Transformation Plan,11 the
                              Postal Service’s goal is to sort 95 percent of letter mail to DPS
                              by 2010. A decrease in AMS data errors will assist Capital
                              Metro Area officials in achieving the DPS goal and will reduce
                              operating costs.12

                                           Table 2. FYs 2005 and 2006 Capital Metro Area Districts’
                                                        DPS Mail Volume Percentages
                                                     Capital Metro Area        FY       FY
                                                     District Locations       2005     2006

                                                 Baltimore                        70.64     74.48
                                                 Capital                          69.82     77.90
                                                 Greater South Carolina          75.75      81.39
                                                 Greensboro                       77.25     78.16
                                                 Mid-Carolinas                    72.68     76.58
                                                 Northern Virginia                70.53     73.36
                                                 Richmond                        72.975     75.13

                                                 Capital Metro Area Average  72.41          75.66
                                                 National Average            76.79          79.72
                                                                Source: WebEIS


                               If the Northern Virginia District implemented best management
                               practices similar to the New York District’s and followed
                               established area and district SOP, they would be able to reduce
                               AMS errors by 31.84 percent,13 which would save the Postal
                               Service $455,197 over the next 10 years. We will report
                               $455,197 of funds put to better use in our Semiannual Report to
                               Congress. (See Appendix C.)

 New York District             The New York District has a total of 2,202 routes. In FY 2005,
                               the NCSC team reviewed 2 percent (40) of these routes
                               according to Postal Service guidelines. The team identified 195
                               AMS errors (approximately five errors per route) and the district
                               received a 99.21 percent AMS performance score from the
                               street review.

                               In 1998, the New York District began an extensive AMS quality

11
   United States Postal Service Strategic Transformation Plan, 2006 – 2010, dated September 2005.
12
   We are planning a future review (incorporating DPS percentages) to identify opportunities to generate revenue,
reduce costs, and improve customer service.
13
   The New York Metro Area error reduction rate factor is 71.05 percent and the control group error reduction rate
factor is 29.74 percent. The New York Metro Area error reduction rate factor is divided by the control group error
reduction rate factor (1.7105 ÷1.2974 which equals 31.84 percent). The expectation is that the Northern Virginia
District will reduce its error rate by 31.84 percent by implementing a program similar to the New York District.


                                                          7
Address Management System Information                                            DR-AR-07-004
 Capital Metro Area


                         review program, administered by local AMS officials, which
                         requires delivery units to complete AMS street reviews using
                         existing staff. As part of the program, New York District officials
                         added an AMS review module to the training course given to
                         New York delivery supervisors. In addition, the New York AMS
                         office established AMS review schedules for all delivery units
                         and an accountability system that monitors the completion of
                         AMS street reviews conducted by delivery supervisors or their
                         designees. As a result, the New York District used existing
                         staff to significantly increase its review coverage.

                         In FY 2005, using their AMS review program, New York District
                         officials established a goal to review all routes annually, which
                         included routes reviewed by the district and the NCSC. The
                         existing staff reviewed and implemented corrective actions for
                         the AMS errors identified. AMS reviews conducted by delivery
                         unit staff are implemented in all districts in the New York Metro
                         Area and the program has been successful. Since its inception,
                         all districts have achieved significant increases in AMS
                         performance scores. The historical average performance score
                         for the New York District is 99.03 percent.

                         The Deputy Postmaster General and Chief Operating Officer
                         issued a memorandum dated August 23, 2006, on AMS
                         national street reviews. The memorandum stated that for
                         FY 2007, trained field personnel would conduct all delivery
                         AMS street reviews. The AMS national street review team will
                         not conduct onsite street reviews in FY 2007 and will not have
                         funding to assist the field with travel costs. The FY 2007
                         delivery AMS street review schedule would continue to be
                         coordinated through the area and headquarters address
                         management. The NCSC will continue to provide street review
                         materials.




                                              8
Address Management System Information                                            DR-AR-07-004
 Capital Metro Area




 Recommendation           We recommend the Vice President, Capital Metro Area
                          Operations, implement an Address Management System
                          quality review program similar to the New York District’s
                          that:

                          1. Provides training in address management national street
                             reviews to delivery supervisors or appropriate designees.

 Management’s             Management agreed with the recommendation to provide
 Comments                 training to delivery supervisors or appropriate designees.
                          Management stated they provided Address Quality
                          Improvement Training (AQIT) to 20 delivery supervisors in
                          October 2006 in the Northern Virginia District. However,
                          management will expand the training to include additional
                          supervisory personnel by August 2007. We have included
                          management’s comments, in their entirety, in Appendix D.

 Recommendations          We recommend the Vice President, Capital Metro Area
                          Operations, direct the Northern Virginia District to follow
                          established area and district Standard Operating
                          Procedures which require:

                          2. Establishing a district schedule of annual Address
                             Management System quality street reviews.

 Management’s             Management agreed with the recommendation to establish
 Comments                 a district schedule of annual AMS street reviews and stated
                          they will use the Address Quality Reporting Tool (AQRT) to
                          identify the routes with the most opportunities, resulting in
                          improved operational performance. Management stated
                          they will monitor progress and compliance at the area level.

                          3. Directing delivery supervisors or appropriate designees
                             to review delivery routes annually.

 Management’s             Management agreed with the recommendation to direct
 Comments                 delivery supervisors or appropriate designees to review
                          delivery routes annually. Management stated the Northern
                          Virginia District will implement a process to incorporate the
                          basic AMS reviews in conjunction with the Capital Metro
                          Area procedures and the AQIT process by August 2007.




                                             9
Address Management System Information                                          DR-AR-07-004
 Capital Metro Area




                          4. Establishing a tracking system to monitor completed
                             street reviews.

 Management’s             Management agreed with the recommendation to establish
 Comments                 a tracking system to monitor completed street reviews to
                          ensure compliance of Capital Metro Area Standard
                          Operating Procedures dated November 23, 2005, and
                          stated the Northern Virginia District has established such a
                          system.

 Evaluation of            Management’s comments are responsive to
 Management’s             recommendations 1, 2, 3, and 4. Management’s actions
 Comments                 taken and planned should correct the issues identified in the
                          finding. Management disagreed with the use of audit errors
                          from one AMS review year to project the same number for
                          the next 10 years as the factor in affixing estimated savings
                          of $455,197. We believe the model used to calculate
                          savings (see Appendix C) provides a reasonable estimate of
                          costs the Postal Service could save by implementing a
                          program to reduce AMS errors. Since management plans to
                          implement the AQRT, we do not plan to pursue the
                          unresolved monetary impact issues through the formal audit
                          resolution process.




                                            10
        Address Management System Information                                                DR-AR-07-004
         Capital Metro Area


                                                 APPENDIX A
                NCSC REVIEW RESULTS FOR THE CAPITAL METRO AREA

                                                            Historical   Achieved                           Achieved
    Capital Metro             FY 2005     Achieved          Average        98%                 FY 2006        98%
    Area District   FY 2005    Score     98% Score         Score as of    Score     FY 2006     Score       Score FY
#    Locations      Score %    Date       FY 2005           FY 2005       History   Score %     Date          2006

1   Mid-Carolinas    96.85     4/19/05          Yes          96.09         No        98.88     9/18/06        Yes
2   Baltimore        98.63     8/16/05          Yes          98.08         Yes       99.19     7/24/06        Yes
3   Capital          99.00     8/1/05           Yes          97.98         No        99.56     7/20/06        Yes
4   Greater South    98.25     3/29/05          Yes          97.80         No        98.79     4/17/06        Yes
    Carolina
5   Greensboro       98.81     5/9/05           Yes          96.32         No        99.14     5/16/05        Yes
6   Northern         99.22     9/26/05          Yes          97.77         No        96.80     7/18/06        No
    Virginia
7   Richmond         98.45     4/19/05          Yes          96.96         No        99.22     8/22/06        Yes

                                         Source: Postal Service NCSC officials




                                                      11
  Address Management System Information                                                                                                                       DR-AR-07-004
   Capital Metro Area




                                                                                           APPENDIX B
                                                        FYS 2005 AND 2006 ROUTE REVIEWS
                                                         FOR THE CAPITAL METRO AREA14

                                            3500
                                                                                                               99.40%           98.80%

                                            3000                99.30%
                                                                                                                                                            99.20%
       Total Number of Routes in District




                                                                               99.20%
                                                                                               99.20%
                                            2500
                                                                                                                                                99%

                                            2000


                                            1500


                                            1000


                                             500
                                                        0.70%            0.80%          0.80%          0.60%            1.20%            1%           0.80%

                                                   0
                                                                                        Greater
                                                                                                   Greensboro            Mid-       Northern
                                                       Baltimore     Capital         South                                                        Richmond
                                                                                                                    Carolina         Virginia
                                                                                    Carolina

Total Routes Reviewed                                      20             20              20             20               40              20           20

Total Routes Not Reviewed                                2773            2549            2371           3097             3164            2023         2620



                                                         Source: Postal Service National Customer Support Center




  14
    A total of 20 routes were reviewed in the Northern Virginia District by NCSC and local officials, and 2,023 routes
  were not reviewed in the district.


                                                                                                  12
Address Management System Information                                            DR-AR-07-004
 Capital Metro Area


                           APPENDIX C
              CALCULATION OF FUNDS PUT TO BETTER USE

The OIG identified $455,197 in funds put to better use over the next 10 years for the
Northern Virginia District.

                                                        Fiscal   Funds Put to
                         Capital Metro Area             Year      Better Use

                      Northern Virginia District        2006          $455,197


The following assumptions were used to calculate the $455,197:

1. We used the New York Metro Area as our standard for predicting the cost savings
   possible for the Northern Virginia District.

2. We assumed that all Postal Service areas other than New York Metro had not
   implemented an error reduction program over the time period of the AMS street
   reviews. These areas were our control group for purposes of estimating the net
   benefit of the New York Metro program.

3. We used the AMS national street review model to calculate cost savings. Therefore,
   we assumed that it realistically represented costs the Postal Service could save if it
   implemented a program to reduce AMS errors. However, in our opinion, any costs
   saved would have to be related to a reduction in overtime or casual hours and,
   therefore, labor rates used should be hourly overtime rates (which was not the
   case).

4. We used the AMS national street review model, unchanged with one exception: the
   model had FY 1999 labor rates imbedded. We updated these rates to reflect FY
   2007 rates by escalating by 2.4 percent per year to arrive at a projection.

5. We assumed the cost of implementing an error reduction program would be
   negligible.

6. We assumed the average cost per error for the Northern Virginia District would
   remain constant before and after program implementation.

7. If the Northern Virginia District began implementing a program immediately, FY 2007
   would be devoted to set up and training. We assumed cost savings would not begin
   until FY 2008. Our calculation of savings (funds put to better use) is a discounted
   cash flow analysis over a 10-year period. The amount we will report in our
   Semiannual Report to Congress is the present value of the estimated savings over
   the 10 years.




                                                   13
Address Management System Information                                          DR-AR-07-004
 Capital Metro Area


8. AMS errors can never be reduced to zero. We assumed the practical lower limit to
   be a 1 percent error rate. However, this constraint did not affect the calculation for
   the Northern Virginia District in this instance.

9. We assumed error rates on rural routes would respond to an error reduction
   program in the same way as city routes.

10. In our analysis of the New York Metro Area, we excluded the Caribbean District due
    to uncertainties regarding implementation of an error reduction program.

11. Not all categories of AMS errors have associated costs. We assumed that costly
    and non-costly errors would respond to an error reduction program in the same
    manner. That is, if the overall reduction rate for all AMS errors was 20 percent, the
    reduction rate for costly errors was also 20 percent.




                                            14
Address Management System Information                DR-AR-07-004
 Capital Metro Area


                 APPENDIX D. MANAGEMENT’S COMMENTS




                                        15
Address Management System Information        DR-AR-07-004
 Capital Metro Area




                                        16
Address Management System Information                                   DR-AR-07-004
 Capital Metro Area


                                        APPENDIX E

                              PRIOR AUDIT COVERAGE

                                                                        Funds Put to
                                                                         Better Use
                                                                        Over the Next
            Audit                  Report Number      Issued Date         10 Years
Address Management                 DR-AR-07-002      March 30, 2007        $862,134
System Information –
Southeast Area
Address Management                 DR-AR-07-001      March 15, 2007       $4,590,875
System Information –
Northeast Area
Address Management                 DR-AR-06-008    September 30, 2006     $2,078,506
System Information – Great
Lakes Area
Address Management                 DR-AR-06-001      January 25, 2006       $988,945
Systems – Southwest Area –
Rio Grande District




                                            17
